                   Forms, Publications, and Computer
                Programming Were Adequately Addressed
                  and Updated in Most Instances for the
                           2005 Filing Season

                                     June 2005

                       Reference Number: 2005-40-094




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     June 03, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Forms, Publications, and Computer
                                   Programming Requests Were Adequately Addressed and
                                   Updated in Most Instances for the 2005 Filing Season
                                   (Audit # 200440047)


      This report presents the results of our review of the adequacy of updates and revisions
      to tax forms, publications, and computer programming in preparation for the processing
      of individual income tax returns. The overall objective of this review was to determine
      whether the Internal Revenue Service (IRS) accurately initiated updates to tax products1
      and computer programming for new tax law provisions that affect the processing of
      individual income tax returns during the 2005 Filing Season.2 This audit focused on
      updates to tax products and requests for computer programming3 changes needed to
      implement provisions of eight pieces of tax legislation, including the recently enacted
      Working Families Tax Relief Act of 20044 and American Jobs Creation Act of 2004.5
      In summary, the IRS successfully updated tax products and initiated computer
      programming requests to update return processing programs necessary to implement
      new tax law provisions. However, we identified two omissions that could affect
      taxpayers claiming the refundable portion of the Child Tax Credit (Additional Child Tax
      Credit). During our review of tax products, we found that two tax products, Armed
      Forces’ Tax Guide (Publication 3) and Child Tax Credit (Publication 972), did not
      adequately address the new tax law requirement to include nontaxable combat pay in
      earned income for purposes of computing the Additional Child Tax Credit. This


      1
        Defined as tax forms, instructions, and publications.
      2
        The period from January through mid-April when most individual income tax returns are filed.
      3
        Requests for Information Services.
      4
        Pub. L. No. 108-311, 118 Stat. 1166.
      5
        Pub. L. No. 108-357, 118 Stat. 1418.
                                              2

omission could cause some military families to claim less than the total credit amount to
which they may be rightfully entitled.
We recommended the Commissioner, Wage and Investment (W&I) Division, revise
Publications 3 and 972 to more thoroughly address the effect of nontaxable combat pay
on the computation of Additional Child Tax Credit and inform military families of this
through appropriate media outlets. Our recommendations provide a measurable benefit
on tax administration by reducing taxpayer burden for taxpayers who have nontaxable
combat pay and are eligible for the Additional Child Tax Credit and helping ensure these
taxpayers receive complete information on this provision of the new tax legislation.
Management’s Response: IRS management agreed with our recommendations.
Management agreed that properly implementing new tax law is one of their greatest
management challenges, particularly when the legislation is enacted late in the year,
and acknowledged that the two tax products, Publications 3 and 972, were not updated
to address a new requirement concerning nontaxable combat pay. IRS management
will revise Publications 3 and 972 to address nontaxable combat pay in the Additional
Child Tax Credit discussion and inform potentially affected military families through the
IRS Stakeholder Partnerships, Education, and Communication organization. However,
IRS management noted that they do not believe the omitted information could cause
military personnel to claim less than the total Additional Child Tax Credit they are
rightfully entitled to or that their corrective actions will have a measurable impact on tax
administration. Management’s complete response to the draft report is included as
Appendix VII.
Office of Audit Comment: We are pleased the Commissioner, W&I Division, has agreed
to implement our recommendations to revise the two publications by including
information relating to nontaxable combat pay for purposes of computing the Additional
Child Tax Credit and to immediately contact outside stakeholders to inform military
families that may have been adversely affected. Although we are puzzled by IRS
management’s negative assessment of the potential outcome from the corrective
actions, we believe the agreement to the recommendations reflects a sound executive
decision that will have a positive effect on military families by reducing their tax burden
and ensuring they receive the intended benefits of the Additional Child Tax Credit.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
              Forms, Publications, and Computer Programming Were Adequately
             Addressed and Updated in Most Instances for the 2005 Filing Season




                                                  Table of Contents


Background ............................................................................................... Page 1
Updates to Tax Forms, Instructions, and Publications for
Tax Year 2004 Were Generally Accurate.................................................. Page 2
Nontaxable Combat Pay Was Not Adequately Addressed in
Two Tax Publications ................................................................................ Page 3
         Recommendation 1: .........................................................................Page 5
         Recommendation 2: .........................................................................Page 6

Requests for Computer Programming Changes Were
Generally Accurate.................................................................................... Page 6
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Outcome Measures............................................................ Page 13
Appendix V – Overview of Tax Law Provisions Examined
During the Review ..................................................................................... Page 14
Appendix VI – List of Tax Products Examined .......................................... Page 19
Appendix VII – Management’s Response to the Draft Report ................... Page 22
          Forms, Publications, and Computer Programming Were Adequately
         Addressed and Updated in Most Instances for the 2005 Filing Season

                                Many new and significant tax law provisions will affect
Background
                                taxpayers’ Tax Year (TY) 2004 individual income tax
                                returns during the 2005 Filing Season.1 These provisions
                                were created by 8 different pieces of legislation that have
                                been enacted over the past 8 years. Most recently enacted
                                were the Working Families Tax Relief Act of 2004
                                (WFTRA)2 and the American Jobs Creation Act of 2004
                                (AJCA).3 Both of these laws were enacted in October 2004
                                and include 7 provisions that alone will provide Wage and
                                Investment (W&I) Division taxpayers4 with tax benefits of
                                up to $5.8 billion.
                                Properly implementing new tax law is one of the Internal
                                Revenue Service’s (IRS) greatest management challenges.
                                It is especially challenging when the legislation is enacted
                                late in the year. Controlling the implementation of new tax
                                legislation, such as the WFTRA and AJCA, is the
                                responsibility of the IRS Legislative Analysis, Tracking,
                                and Implementation Services (LATIS) function.
                                The LATIS function is responsible for managing the
                                IRS-wide implementation planning and monitoring of
                                legislation having a significant impact on the IRS. This
                                process uses the Legislative Implementation Tracking
                                System (LITS), an Intranet-based planning and monitoring
                                system that provides real-time status updates and has
                                management information capabilities. Two areas covered
                                by LITS controls are:
                                •   The revision of various tax forms, instructions, and
                                    publications (i.e., tax products). Annually, the IRS
                                    must revise or create new tax products to implement
                                    new legislation. The IRS function responsible for tax
                                    products is the Tax Forms and Publications Division.
                                    This Division originates and improves tax forms and
                                    publications, ensuring they are understandable and as


                                1
                                  The period from January through mid-April when most individual
                                income tax returns are filed.
                                2
                                  Pub. L. No. 108-311, 118 Stat. 1166.
                                3
                                  Pub. L. No. 108-357, 118 Stat. 1418.
                                4
                                  W&I Division taxpayers are individuals that report primarily wage and
                                investment type income on Forms 1040, 1040A, or 1040EZ (these
                                Forms are in the U.S. Individual Income Tax Return series).
                                                                                               Page 1
             Forms, Publications, and Computer Programming Were Adequately
            Addressed and Updated in Most Instances for the 2005 Filing Season

                                       easy to use as possible and, as a result, enabling
                                       taxpayers to meet tax filing and payment obligations.
                                   •   The reprogramming of computer systems that are
                                       used to process tax returns. The process used for
                                       requesting computer programming changes is known as
                                       a Request for Information Services. The Requests are
                                       submitted to the IRS Modernization and Information
                                       Technology Services (MITS) organization by the
                                       function responsible for the computer process being
                                       changed. The computer programming requests needed
                                       for implementing new tax law provisions during the
                                       annual processing of individual income tax returns
                                       should normally be identified and submitted to the
                                       MITS organization by February 28th of the year
                                       preceding the filing season.
                                   This review was performed in the W&I Division in
                                   Atlanta, Georgia; the Submission Processing offices in
                                   Lanham, Maryland; and the Austin Submission Processing
                                   Site5 in Austin, Texas, during the period August 2004
                                   through February 2005. The audit was conducted in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   Overall, the IRS successfully updated the tax forms,
Updates to Tax Forms,
                                   instructions, and publications relating to the new tax law
Instructions, and Publications
                                   provisions that affect W&I Division taxpayers’ TY 2004
for Tax Year 2004 Were
                                   individual income tax returns.
Generally Accurate
                                   Our review initially examined 12 tax law provisions
                                   included in 6 pieces of tax legislation that became effective
                                   in TY 2004. However, in October 2004, 2 pieces of
                                   legislation were enacted that included 11 additional
                                   provisions that will affect W&I Division taxpayers for
                                   TY 2004. A brief summary of the provisions we reviewed
                                   for TY 2004 changes can be found in Appendix V.
                                   To identify the tax forms, instructions, and publications
                                   (tax products) requiring updates as a result of the tax


                                   5
                                    Submission Processing sites are locations at which income tax returns
                                   are processed.
                                                                                                  Page 2
            Forms, Publications, and Computer Programming Were Adequately
           Addressed and Updated in Most Instances for the 2005 Filing Season

                                  provisions identified, we queried the LITS. Our query
                                  identified 31 tax products requiring updates for the initial
                                  12 provisions we examined and 45 tax products for the
                                  subsequent 11 provisions. Some tax products were
                                  identified twice and subsequently reviewed twice because
                                  provisions of the October 2004 legislation extended or
                                  revised provisions previously scheduled to change for
                                  TY 2004. For example, the deduction for Educator
                                  Expenses was scheduled to expire for TY 2004 and the tax
                                  forms, instructions, and publications had been updated to
                                  reflect the changes. However, WFTRA Section 307
                                  extended this deduction for TY 2004, and the tax products
                                  had to be subsequently revised.
                                  We reviewed a total of 49 tax products (24 forms,
                                  11 instructions, and 14 publications) to determine whether
                                  they were consistent with the provisions enacted by the
                                  Congress. Comparison of each tax product with the related
                                  legislation determined that the tax products we reviewed
                                  were accurately updated, with two exceptions. A list of the
                                  49 tax products we reviewed can be found in Appendix VI.
                                  During our review of tax products, we found that two
Nontaxable Combat Pay Was
                                  publications did not adequately address the new tax law
Not Adequately Addressed in
                                  requirement to include nontaxable combat pay in earned
Two Tax Publications
                                  income for purposes of computing the refundable portion of
                                  the Child Tax Credit (Additional Child Tax Credit). These
                                  were the Armed Forces’ Tax Guide (Publication 3) and
                                  Child Tax Credit (Publication 972).




                                                                                         Page 3
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season

                              Figure 1: Armed Forces’ Tax Guide (Publication 3)




                           Source: IRS Internet web site.
                                 Figure 2: Child Tax Credit (Publication 972)




                           Source: IRS Internet web site.
                                                                                  Page 4
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season

                       The new legislation, WFTRA Section 104, provides that
                       combat pay (which is normally not taxable) be included in
                       computing taxable (earned) income for purposes of
                       calculating the Additional Child Tax Credit. The Congress
                       enacted this provision to provide additional tax benefits for
                       military families. By the end of TY 2004,
                       193,000 Reservists and National Guard troops had been
                       mobilized for service. Approximately 165,000 troops were
                       in the combat zones of Iraq and Afghanistan, and many of
                       these troops have families at home. When nontaxable
                       combat pay is included in the computation of earned
                       income, the refundable amount of the Child Tax Credit
                       increases.
                       Military families who rely on Publications 3 and 972 for
                       guidance will not be informed about this new tax benefit
                       and could risk losing the benefit of the new law. The
                       Additional Child Tax Credit (Form 8812), in its instructions
                       section, is the only tax product that adequately addresses the
                       combat pay issue relative to the Credit.
                       We discussed this issue with the IRS Tax Forms and
                       Publications Division and were informed that, due to the
                       large number of late changes created by the October 2004
                       legislation, these two Publications were not updated to
                       include additional information on this new provision.

                       Recommendations

                       To provide military families with complete information on
                       treatment of nontaxable combat pay regarding the
                       Additional Child Tax Credit, the Commissioner,
                       W&I Division, should:
                       1. Revise Publications 3 and 972 to more thoroughly
                          address the effect of nontaxable combat pay on the
                          computation of the Additional Child Tax Credit.
                       Management’s Response: The IRS will revise the 2005
                       Publications 3 and 972 to address nontaxable combat pay in
                       the Additional Child Tax Credit discussion.
                       Office of Audit Comment: We are pleased the
                       Commissioner, W&I Division, has agreed to implement our
                       recommendation to revise the above publications by
                                                                              Page 5
            Forms, Publications, and Computer Programming Were Adequately
           Addressed and Updated in Most Instances for the 2005 Filing Season

                                  including information relating to nontaxable combat pay for
                                  purposes of computing the Additional Child Tax Credit and
                                  to immediately contact outside stakeholders to inform
                                  military families that may have been adversely affected (see
                                  Recommendation 2). Although we are puzzled by IRS
                                  management’s negative assessment of the potential outcome
                                  from the corrective actions, we believe the agreement with
                                  the recommendations reflects a sound executive decision
                                  that will have a positive effect on military families by
                                  reducing their tax burden and ensuring they receive the
                                  intended benefits of the Additional Child Tax Credit.
                                  2. Consider immediately informing potentially affected
                                     military families in various Armed Forces publications
                                     or other appropriate media through the IRS Stakeholder
                                     Partnerships, Education, and Communication (SPEC)
                                     organization.
                                  Management’s Response: The IRS included information on
                                  treatment of nontaxable combat pay regarding the
                                  Additional Child Tax Credit in the Military Volunteer
                                  Income Tax Assistance (VITA) training materials, and
                                  Military VITA volunteers were trained on the treatment of
                                  nontaxable combat pay prior to preparing tax returns for
                                  military taxpayers. The IRS will inform the Executive
                                  Director of the Armed Forces Tax Council of the
                                  requirements and request that a communiqué on the
                                  treatment of nontaxable combat pay regarding the
                                  Additional Child Tax Credit be sent immediately to all
                                  military bases. Finally, the IRS will coordinate through the
                                  SPEC organization the issuance of a press release for
                                  distribution to military news media regarding the treatment
                                  of nontaxable combat pay regarding the Additional Child
                                  Tax Credit.
                                  Overall, the IRS accurately initiated computer programming
Requests for Computer
                                  requests to update return processing programs for new tax
Programming Changes Were
                                  law provisions that affect W&I Division taxpayers’
Generally Accurate
                                  TY 2004 individual income tax returns.
                                  Many of the new tax law provisions for TY 2004 include
                                  changes that require the IRS to update its return processing
                                  computer programs to ensure taxpayers receive the correct
                                  credit or deduction and comply with eligibility
                                  requirements. For example, Medicare Prescription Drug
                                                                                        Page 6
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season

                       Improvement and Modernization Act of 20036 Section 1201
                       created the deduction for Health Savings Accounts (HSA),
                       which provides a tax-favored treatment for current medical
                       expenses as well as the ability to save on a tax-favored basis
                       for future medical expenses. Several factors are used in
                       determining the computation of the deduction. These
                       include:
                       •     The amount contributed by the taxpayer to
                             the HSA.
                       •     The amount contributed by the taxpayer’s
                             employer to the HSA.
                       •     The taxpayer’s age.
                       •     The deductible for the taxpayer’s High-Deductible
                             Health Plan.
                       Other eligibility requirements apply but do not affect the
                       computation of the deduction. These include that the
                       individual may not be entitled to Medicare benefits; have no
                       other health insurance coverage, except what is permitted;
                       and must not be claimed as a dependent on another
                       individual’s tax return.
                       It is essential that computer programs for new tax provisions
                       are updated accurately. According to the Joint Committee
                       on Taxation, the tax effect for this provision alone in
                       Fiscal Year 2005 will be $474 million.
                       We identified four requests that were initiated for computer
                       programming changes needed to implement the new tax
                       provisions that affect individual income tax return
                       processing during the 2005 Filing Season. In addition, we
                       identified six amendments for subsequent changes made to
                       these computer programming requests. Analysis of these
                       computer programming requests determined that the
                       requested updates submitted by the W&I Division
                       Submission Processing function to the MITS organization
                       were generally accurate. In addition, analysis of computer
                       programming documentation for return processing programs
                       determined that the programs were accurately updated for
                       the new tax law provisions.

                       6
                           Pub. L. No. 108-173, 117 Stat. 2066.
                                                                              Page 7
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season

                       While accurate updates to computer programming
                       documentation are a good indication that the actual
                       computer programs were correctly updated, we cannot
                       determine whether they are truly accurate until processing
                       of tax returns begins. We will test the actual accuracy of
                       computer programming updates for these new tax law
                       provisions as a part of our 2005 Filing Season review.7




                       7
                           2005 Filing Season Implementation (Audit # 200540018).


                                                                                    Page 8
              Forms, Publications, and Computer Programming Were Adequately
             Addressed and Updated in Most Instances for the 2005 Filing Season

                                                                                                 Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) accurately initiated updates to tax products1 and computer programming for new tax law
provisions that affect the processing of individual income tax returns during the 2005 Filing
Season.2 The audit focused on updates to tax products and computer programming required by
provisions of the eight pieces of tax legislation listed in Appendix V. To accomplish our
objective, we:
I.      Determined whether the IRS initiated changes to the tax products and the Requests for
        Information Services (RIS) needed to implement new tax law provisions that affect the
        processing of Wage and Investment (W&I) Division taxpayers’ returns.3
        A. Identified 12 new tax legislation provisions that will have a significant effect on
           returns filed by W&I Division taxpayers during the 2005 Filing Season.
        B. Identified 31 tax products that will require updating as a result of tax law changes
           affecting Tax Year (TY) 2004 returns and reviewed 27 tax products4 to determine
           whether these instruments were accurately updated.
        C. Reviewed the RISs controlled by the IRS and determined whether RISs exist to
           address the new tax law provisions identified.
II.     Determined whether the RISs initiated for tax law changes that potentially affect large
        numbers of W&I Division taxpayers or tax dollars completely and accurately reflect the
        new provisions of the tax law.
        A. Reviewed the new tax law provisions identified and determined the specific elements
           and criteria based on the tax law that should be included in the RISs.
        B. Evaluated the RIS documentation and determined whether the necessary elements and
           criteria were included and clearly communicated.
        C. Reviewed the Functional Specification Packages (FSP)5 that required updating as a
           result of the RISs identified and determined whether the necessary elements and
           criteria were accurately included in return processing program documentation.



1
  Defined as tax forms, instructions, and publications.
2
  The period from January through mid-April when most individual income tax returns are filed.
3
  W&I Division taxpayers are individuals that report primarily wage and investment type income on Forms 1040,
1040A, or 1040EZ (these Forms are in the U.S. Individual Income Tax Return series).
4
  Four tax products were not reviewed because they had not been finalized by the conclusion of our work.
5
  FSPs provide text descriptions of the computer programs used by the IRS to process tax returns.
                                                                                                       Page 9
              Forms, Publications, and Computer Programming Were Adequately
             Addressed and Updated in Most Instances for the 2005 Filing Season

III.    Determined whether the IRS correctly initiated changes to the tax products, RISs, and
        FSPs needed to implement provisions of the recently enacted Working Families Tax
        Relief Act of 2004 (WFTRA)6 and American Jobs Creation Act of 2004 (AJCA)7 that
        will affect the processing of W&I Division taxpayers’ TY 2004 returns.
        A. Reviewed the WFTRA and AJCA and identified the 11 provisions that will affect the
           processing of individual income tax returns during the 2005 Filing Season.
        B. Identified the 45 tax products that will require revision as a result of the WFTRA and
           AJCA provisions identified and reviewed 39 tax products8 to determine whether the
           tax products were accurately updated.
        C. Identified the one RIS initiated to implement the changes necessary to update return
           processing programs as a result of the WFTRA and AJCA provisions identified and
           determined whether it correctly reflected the requirements of the legislation.
        D. Reviewed the FSPs that required changes as a result of the RIS identified and
           determined whether changes to the elements and criteria requested in the RIS were
           accurately updated.




6
  Pub. L. No. 108-311, 118 Stat. 1166.
7
  Pub. L. No. 108-357, 118 Stat. 1418.
8
  Six tax products were not reviewed because they had not been finalized by the conclusion of our work.
                                                                                                          Page 10
            Forms, Publications, and Computer Programming Were Adequately
           Addressed and Updated in Most Instances for the 2005 Filing Season

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Steven E. Vandigriff, Lead Auditor
Glory Jampetero, Auditor
Bonnie G. Shanks, Auditor




                                                                                         Page 11
           Forms, Publications, and Computer Programming Were Adequately
          Addressed and Updated in Most Instances for the 2005 Filing Season

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
   Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 12
                 Forms, Publications, and Computer Programming Were Adequately
                Addressed and Updated in Most Instances for the 2005 Filing Season

                                                                                   Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
      •    Taxpayer Burden – Actual; two publications did not adequately address the new
           requirement to include nontaxable combat pay in earned income for purposes of
           computing the Additional Child Tax Credit (see page 3).
Methodology Used to Measure the Reported Benefit:
We reviewed a total of 49 tax products (24 forms, 11 instructions, and 14 publications) to
determine whether they were consistent with the new provisions enacted by the Congress. We
compared each tax product to the related legislation to determine whether each tax product was
accurately updated.
Section 104 of the Working Families Tax Relief Act of 20041 provides that combat pay (which is
normally not taxable) be included in computing taxable (earned) income for purposes of
calculating the refundable portion of the Child Tax Credit (Additional Child Tax Credit). The
Congress intended this provision to provide assistance to military families in combat zones by
increasing the refundable portion of the Child Tax Credit.
Military families who rely on the Armed Forces’ Tax Guide (Publication 3) and Child Tax Credit
(Publication 972) for guidance will not be informed about this issue and could risk losing the
benefits of the new law. These publications do not provide any narrative explanation of this new
requirement. The Additional Child Tax Credit (Form 8812), in its instructions section, is the
only tax product that adequately addresses the combat pay issue relative to the Credit.




1
    Pub. L. No. 108-311, 118 Stat. 1166.
                                                                                           Page 13
              Forms, Publications, and Computer Programming Were Adequately
             Addressed and Updated in Most Instances for the 2005 Filing Season

                                                                                                    Appendix V


              Overview of Tax Law Provisions Examined During the Review
The following information describes various tax law provisions that affect tax products1 for and
processing of individual income tax returns during the 2005 Filing Season.2
Taxpayer Relief Act of 1997 (TRA)3
The TRA contained the following provision:
1) Section 301 - Restoration of IRA [Individual Retirement Arrangement] Deduction for
   Certain Taxpayers. Provides for taxpayers covered by a retirement plan at work. The
   deduction for contributions to a traditional IRA will be reduced if the modified adjusted gross
   income (MAGI) exceeds the phase-out limitations. For Tax Year (TY) 2004, these phase-out
   limitations have been increased. The deduction for traditional IRA contributions will be
   reduced when a taxpayer’s MAGI is more that $65,000 but less than $75,000 for a married
   couple filing a joint return or a qualified widow(er) (or is more than $45,000 but less than
   $55,000 for single individuals or taxpayers filing as head of household).
Economic Growth and Tax Relief Reconciliation Act of 2001 (EGTRRA)4
The EGTRRA contained the following three provisions:
1) Section 402 - Modifications to Qualified Tuition Programs (QTP). Provides that for
   TY 2004 a distribution from a QTP established and maintained by an eligible educational
   institution (generally private colleges and universities) can be excluded from income if the
   amount distributed is not more than qualified education expenses.
2) Section 431 - Deduction for Higher Education Expenses. Provides for an above-the-line
   deduction for qualified education expenses. For TY 2004, the amount of qualified education
   expenses that can be taken into account when figuring the tuition and fees deduction
   increases from $3,000 to $4,000 if the MAGI is not more than $65,000 ($130,000 if married
   filing jointly). If the MAGI is more than $65,000 ($130,000 if married filing jointly), but not
   more than $80,000 ($160,000 if married filing jointly), the maximum tuition and fees
   deduction will be $2,000. No tuition and fees deduction will be allowed if the MAGI is more
   than $80,000 ($160,000 if married filing jointly).
3) Section 631 - Change in Catch-Up Contributions for Individuals Age 50 and Over. Provides
   that participants in 403(b), 401(k), and other applicable employer plans that are age 50 or


1
  Defined as tax forms, instructions, and publications.
2
  The period from January through mid-April when most individual income tax returns are filed.
3
  Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
4
  Pub. L. No. 107-16, 115 Stat. 38.
                                                                                                            Page 14
              Forms, Publications, and Computer Programming Were Adequately
             Addressed and Updated in Most Instances for the 2005 Filing Season

    over at the end of the year generally can make catch-up contributions to the plan. For
    TY 2004, the maximum catch-up contribution increases to $3,000.
Job Creation and Worker Assistance Act of 2002 (JCWAA)5
The JCWAA contained the following five provisions. These provisions were subsequently
superseded by the Working Families Tax Relief Act of 2004.6
1) Section 406 - Adjusted Gross Income Determined by Taking Into Account Certain Expenses
   of Elementary and Secondary School Teachers (Educator Expenses). Provides an
   above-the-line deduction for up to $250 annually of expenses paid or incurred by an eligible
   educator for books, supplies, computer equipment (including related software and services)
   and other equipment, and supplementary materials used by the eligible educator in the
   classroom. To be eligible for this deduction, the expenses must be otherwise deductible
   under Internal Revenue Code Section 162 as a trade or business expense. This provision was
   available for TYs 2002 and 2003, but Section 307 of the Working Families Tax Relief Act of
   2004 (see below) extended the Educator Expenses through TY 2005.
2) Section 601 - Allowance of Nonrefundable Personal Credits Against Regular and Minimum
   Tax Liability. Provides for an individual to offset the entire regular tax liability and
   alternative minimum tax liability by the personal nonrefundable credits in TYs 2002 and
   2003. For TY 2004, the allowance is no longer available.
3) Section 602 - Credit for Qualified Electric Vehicles. Provides for a deferral of the
   phase-out of the credit for 2 years. Taxpayers may claim the full amount of the credit for
   qualified purchases made in TYs 2002 and 2003; however, in TY 2004, the phase-out of the
   credit value commences and it is reduced by 25 percent.
4) Section 606 - Deduction for Clean-Fuel Vehicles and Certain Refueling Property. Provides
   for a deferral of the phase-out of the deduction for clean-fuel vehicle property by 2 years.
   Taxpayers may claim the full amount of the deduction for qualified vehicles placed in service
   in TYs 2002 and 2003; however in TY 2004, the phase-out of the deduction for
   clean-fuel vehicles commences and it is reduced by 25 percent.
5) Section 612 - Availability of Medical Savings Accounts (MSA). Provides for an extension
   of the Archer MSA program through December 31, 2003, after which participation is limited
   to active participants before January 1, 2004, or those covered by a High-Deductible Health
   Plan of an Archer MSA-participating employer.




5
  Pub. L. No. 107-147, 116 Stat. 21 (codified as amended in scattered sections of 26 U.S.C., 29 U.S.C., and
42 U.S.C.).
6
  Pub. L. No. 108-311, 118 Stat. 1166.
                                                                                                              Page 15
              Forms, Publications, and Computer Programming Were Adequately
             Addressed and Updated in Most Instances for the 2005 Filing Season

Jobs and Growth Tax Relief Reconciliation Act of 2003 (JGTRRA)7
The JGTRRA contained the following provision:
1) Section 301 - Reduction in Capital Gains Rates for Individuals; Repeal of 5-Year Holding
   Period Requirement. Provides that, for sales and dispositions of property after May 5, 2003,
   the maximum tax rates for net capital gains were reduced from 20 percent to 15 percent and
   from 10 percent to 5 percent. For TY 2004, the post-May 5, 2003, capital gain distributions
   language and calculations no longer apply. All sales and dispositions for the year are
   covered by the new rates.
Military Family Tax Relief Act of 2003 (MFTRA)8
The MFTRA contained the following provision:
1) Section 109 - Above-the-Line Deduction for Overnight Travel Expenses of National Guard
   and Reserve Members. Creates an above-the-line deduction for travel expenses of National
   Guard troops and Reservists. Travel must take the National Guard soldier or Reservist more
   than 100 miles away from home and require an overnight stay. The amount of deductible
   expenses cannot exceed the general Federal Government per diem rate applicable to the
   locality. The deduction was available in TY 2003, but it had to be written in on the face of
   the return. For TY 2004, the deduction is being given a specific line on the return.
Medicare Prescription Drug Improvement and Modernization Act of 2003 (MPDIMA)9
The MPDIMA contained the following provision:
1) Section 1201 - Health Savings Accounts (HSA). Creates HSAs, which provide tax-favored
   treatment for current medical expenses as well as the ability to save on a tax-favored basis for
   future medical expenses. Within limits, contributions to an HSA are deductible if made by
   an eligible individual and are excludable from gross income and wages for employment tax
   purposes if made by the employer of an eligible individual. Distributions from HSAs for
   qualified medical expenses are not includible in gross income. Distributions that are not for
   qualified medical expenses are includible in gross income and subject to an additional
   10 percent tax. The additional 10 percent tax does not apply after death or disability or when
   the individual attains the age of Medicare program eligibility.
Working Families Tax Relief Act of 2004 (WFTRA)
The WFTRA contained the following seven10 provisions:
1) Section 102 - Acceleration of Increase in Refundability of the Child Tax Credit.
   Provides for an acceleration of the refundable portion the Child Tax Credit. Beginning in

7
  Pub. L. No. 108-27, 117 Stat. 752.
8
  Pub. L. No. 108-121, 117 Stat. 1335.
9
  Pub. L. No. 108-173, 117 Stat. 2066.
10
   Three additional WFTRA provisions were reviewed. These included Sections 401, 402, and 403, which relate to
technical corrections for the MPDIMA, JGTRRA, and EGTRRA.
                                                                                                       Page 16
                 Forms, Publications, and Computer Programming Were Adequately
                Addressed and Updated in Most Instances for the 2005 Filing Season

       TY 2004, the Child Tax Credit is refundable to the extent of 15 percent of the taxpayer’s
       taxable earned income in excess of $10,750. Previously, the increase from 10 percent to
       15 percent was to occur in TY 2005.
2) Section 104 - Earned Income Includes Combat Pay. Provides that combat pay, which is
   otherwise excluded from gross income, is treated as earned income for purposes of
   calculating the refundable portion of the Child Tax Credit beginning in TY 2004. Also
   beginning in TY 2004, combat pay, if the taxpayer elects, can be included as earned income
   for purposes of calculating the Earned Income Tax Credit.
3) Section 307 - Deduction for Certain Expenses of School Teachers (Educator Expenses).
   Provides a 2-year extension of the up to $250 deduction for classroom expenses paid or
   incurred by an eligible educator. This deduction was scheduled to expire in TY 2003 but has
   been extended through TY 2005.
4) Section 312 - Allowance of Nonrefundable Personal Credits Against Regular and Minimum
   Tax Liability. Provides a 1-year extension for an individual to offset the entire regular tax
   liability and alternative minimum tax liability by the personal nonrefundable credits. The
   allowance was scheduled to expire in TY 2003 but has been extended through TY 2005.
5) Section 318 - Elimination of Phase-Out of Credit for Qualified Electric Vehicles for [Tax
   Years] 2004 and 2005. Provides for a deferral of the phase-out of the credit for qualified
   electric vehicles for 2 years. Taxpayers may claim the full amount of the credit for qualified
   purchases made in TYs 2004 and 2005.
6) Section 319 - Elimination of Phase-Out for Deduction for Clean-Fuel Vehicle Property for
   [Tax Years] 2004 and 2005. Provides for a deferral of the phase-out of the deduction for
   clean-fuel vehicles for 2 years. Taxpayers may claim the full amount of the deduction for
   qualified vehicles placed in service in TYs 2004 and 2005.
7) Section 322 - Availability of Medical Savings Accounts. Provides for an extension of the
   Archer MSA program through December 31, 2005.
American Jobs Creation Act of 2004 (AJCA)11
The ACJA contained the following provision:
1) Section 501 - Deduction of State and Local General Sales Taxes in Lieu of State and Local
   Income Taxes. Permits taxpayers to elect, in lieu of the itemized deduction now provided for
   state and local income taxes, an itemized deduction for their state and local general sales
   taxes. Taxpayers who elect could deduct either their actual sales taxes paid, as evidenced by
   their accumulated receipts showing those amounts, or the amount shown for their income
   bracket in tables issued by the Secretary of the Treasury. The state-by-state tables are to be
   based on average consumption by taxpayers in each state taking into account filing status,

11
     Pub. L. No. 108-357, 118 Stat. 1418.


                                                                                             Page 17
        Forms, Publications, and Computer Programming Were Adequately
       Addressed and Updated in Most Instances for the 2005 Filing Season

number of dependents, adjusted gross income, and rates of state and local general sales
taxation. Taxpayers who use the tables may, in addition to the table amounts, deduct eligible
general sales taxes paid with respect to the purchase of motor vehicles, boats, and other items
specified by the Secretary of the Treasury. The provision is effective for TY 2004.




                                                                                       Page 18
                Forms, Publications, and Computer Programming Were Adequately
               Addressed and Updated in Most Instances for the 2005 Filing Season

                                                                                            Appendix VI


                                    List of Tax Products Examined
                                                    Tax Forms

           Tax Product                                Title
1. Form 1040                             U.S. Individual Income Tax Return
2. Form 1040, Schedule A                 Schedule A-Itemized Deductions
3. Form 1040, Schedule D                 Capital Gains and Losses
4. Form 1040, Schedule R                 Credit for the Elderly or the Disabled
5. Form 1040A                            U.S. Individual Income Tax Return
6. Form 1040A, Schedule 2                Child and Dependent Care Expenses for Form 1040A Filers
7. Form 1040A, Schedule 3                Credit for the Elderly or the Disabled for Form 1040A Filers
8. Form 1040EZ                           Income Tax Return for Single and Joint Filers With
                                         No Dependents
9. Form 1040NR                           U.S. Nonresident Alien Income Tax Return
10. Form 2106-EZ                         Unreimbursed Employee Business Expenses
11. Form 2441                            Child and Dependent Care Expenses
12. Form 5329                            Additional Taxes on Qualified Plans (Including IRAs1) and Other
                                         Tax-Favored Accounts
13. Form 5498-ESA                        Coverdell ESA2 Contribution Information
14. Form 8396                            Mortgage Interest Credit
15. Form 8801                            Credit for Prior Year Minimum Tax - Individuals,
                                         Estates, and Trusts
16. Form 8812                            Additional Child Tax Credit
17. Form 8834                            Qualified Electric Vehicle Credit
18. Form 8839                            Qualified Adoption Expenses




1
    Individual Retirement Arrangement.
2
    Educational Savings Account.
                                                                                                  Page 19
                Forms, Publications, and Computer Programming Were Adequately
               Addressed and Updated in Most Instances for the 2005 Filing Season

19. Form 8851                   Summary of Archer MSAs3
20. Form 8853                   Archer MSAs and Long-Term Care Insurance Contracts
21. Form 8863                   Education Credits (Hope and Lifetime Learning Credits)
22. Form 8880                   Credit for Qualified Retirement Savings Contributions
23. Form 8885                   Health Coverage Tax Credit
24. Form 8889                   Health Savings Accounts (HSAs)

                                    Tax Form Instructions

          Tax Product                       Title
1. Form 1040                    2004 1040 Instructions
2. Form 1040, Schedule D        2004 Instructions for Schedule D, Capital Gains and Losses
3. Form 1040A                   2004 1040A Instructions
4. Form 1040A, Schedule 2       2004 Instructions for Schedule 2 (Form 1040A), Child and
                                Dependent Care Expenses for Form 1040A Filers
5. Form 1040C                   Instructions for Form 1040-C, U.S. Departing Alien Income Tax
                                Return
6. Form 1040EZ                  2004 1040EZ Instructions
7. Form 1040NR                  Instructions for Form 1040NR, U.S. Nonresident Alien Income
                                Tax Return
8. Form 2106                    Instructions for Form 2106, Employee Business Expenses
9. Form 2441                    Instructions for Form 2441, Child and Dependent Care Expenses
10. Form 8853                   Instructions for Form 8853, Archer MSAs and Long-Term Care
                                Insurance Contracts
11. Form 8889                   Instructions for Form 8889, Health Savings Accounts (HSAs)

                                         Tax Products

          Tax Product                       Title
1. Publication 3                Armed Forces’ Tax Guide
2. Publication 17               Your Federal Income Tax For Individuals


3
    Medical Savings Account.
                                                                                         Page 20
           Forms, Publications, and Computer Programming Were Adequately
          Addressed and Updated in Most Instances for the 2005 Filing Season

3. Publication 502         Medical and Dental Expenses (Including the Health Coverage
                           Tax Credit)
4. Publication 503         Child and Dependent Care Expenses
5. Publication 504         Divorced or Separated Individuals
6. Publication 524         Credit for the Elderly or the Disabled
7. Publication 529         Miscellaneous Deductions
8. Publication 590         Individual Retirement Arrangements (IRAs)
9. Publication 596         Earned Income Credit (EIC)
10. Publication 600        Optional State Sales Tax Tables
11. Publication 968        Tax Benefits for Adoption
12. Publication 969        Health Savings Accounts and Other Tax-Favored Health Plans
13. Publication 970        Tax Benefits for Education
14. Publication 972        Child Tax Credit




                                                                                Page 21
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season

                                                              Appendix VII


         Management’s Response to the Draft Report




                                                                     Page 22
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season




                                                                     Page 23
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season




                                                                     Page 24
 Forms, Publications, and Computer Programming Were Adequately
Addressed and Updated in Most Instances for the 2005 Filing Season




                                                                     Page 25
